The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                       November 29, 2013




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period April 1, 2013 to September 31,
2013.

The Commission appreciates the work done by the Office of Inspector General in assuring the
effectiveness, efficiency, and integrity of Commission programs and operations. Inspector
General Philip M. Heneghan and his staff continue to provide invaluable service to the
Commission. We look forward to continuing to work with the Inspector General as we address
the issues raised in this report.

The Inspector General’s Semiannual Report identifies the top management and
performance challenges in FY 2013 that require significant attention from the USITC. The
Commission concurs with the critical challenges identified by the Inspector General. We
continue our efforts to address these challenges to ensure that our internal operations are well
managed. The corrective actions that have been both initiated and completed address many of the
challenges identified by the Inspector General.

The actions we are taking with respect to the Inspector General’s identified broad management
challenges on (1) internal control, (2) financial management, and (3) use of information
technology to improve staff productivity, are summarized in Part I of this message. Part II of this
message addresses the status of specific corrective actions as they relate to the Inspector
General’s recommendations of individual audits.



                                                 1
   I.      Addressing Management and Performance Challenges

           A. Internal Control

The Commission recognizes that internal control management touches all areas of the
organization and affects the administrative, programmatic, information technology, security,
compliance, and financial controls at the entity as well as office-level. Due to the complexity of
the actions that need to be taken and the limited availability of resources, the Commission
remains realistic regarding the timeline to complete remediation actions related to this
management challenge. The multi-year effort to transform the management structure and culture
of the Commission, which is underway, has the support of the Chairman, the Commissioners,
and the members of the agency’s Senior Executive Service (SES).

During the past few years the Commission focused much of its efforts on implementing financial
controls, as evidenced by the recent unqualified audit opinions. The Commission is now
expanding its efforts to establish and implement an effective internal control system that
addresses agency-wide processes. The Commission is planning to focus on the development of a
risk based internal control structure and expand its business process mapping efforts throughout
the agency in order to continue to establish, implement, and monitor strong and effective internal
controls.

           B. Financial Management

The Commission is pleased to report that the financial management challenge has been
eliminated since the issuance of the Inspector General’s report. Furthermore, the Commission
would like to note that the agency received an unqualified audit opinion on the FY 2012 and FY
2011 financial statements and is currently undergoing the final stages of the FY 2013 audit. As
part of the FY 2013 audit process, the Commission was able to provide evidence that the
Commission eliminated the agency’s financial material weakness and significant deficiency
while improving the overall financial documentation.


           C. Using Information Technology to Improve Staff Productivity

Information technology is integral to the Commission’s operations and the productivity of its
staff. The Commission recognizes that more needs to be done in this area to support and improve
staff productivity, and is committed to doing so.

Staff frequently perform Commission work while off premises, and should be able to do so at all
times and especially in the event that the primary data center becomes unavailable. Recently, the
Commission made operational an alternate/disaster recovery data center and implemented remote
access improvements. The Commission also recently tested and confirmed the operation of this
data recovery center and is now in the process of expanding its capabilities.

Through the Office of the CIO, the Commission is investing significant effort into upgrading the
Commission’s aged technology platform that supports many of the services delivered to both the
public and ITC employees. During this past year, the agency transitioned to open source database
                                                2
technologies, which significantly reduced costs and provided efficiency gains. Additional
upgrade work continues on the replacement of obsolete network assets and technology. The
Commission recognizes that it must continue to work to ensure that its IT resources are available
to staff in a way that enhances their productivity and protects the security of government
information assets, and the Commission intends to expand the feedback it is obtaining from staff
and the public in order to make the appropriate improvements.

As the Commission’s operational units continue to document and define their business activities,
this knowledge will enable the Commission to plan and deploy technology that will increase
these units’ efficiency and effectiveness. For example, the Commission is in the process of
significantly automating the management of the Harmonized Tariff Schedule so that it can be
updated more efficiently and so that it can minimize the risk of human error. Also, the
Commission has developed a sophisticated database to assess trends and facilitate its resource
planning for its 337 investigations. As additional business processes are evaluated, the
Commission will continue to evaluate its commitment of resources towards applying technology
to enhance productivity.

The now-operational alternate/disaster recovery data center addresses a number of the
deficiencies cited in the annual Inspector General Cyberscope Fiscal Year 2012 submission. The
Commission will make progress on the remaining items by prioritizing and assigning the
appropriate resources necessary to address remaining deficiencies.


II. Actions on Recommendations

A. Actions on Inspector General Recommendations Made in this Reporting Period

During this April 1, 2013 to September 31, 2013 semiannual reporting period, the Inspector
General issued two new reports, one on the security of public-facing endpoints and one on the
perimeter network security. These reports provided the Commission with a total of ten new
recommendations. For each of these recommendations, the Commission issued management
decisions for corrective action in a timely manner. During this period, the Commission also
issued management decisions in response to an audit submitted at the end of the previous
reporting period on its purchase card program. Management decisions for those previous
recommendations were also issued in a timely manner. With regard to corrective action on audits
from previous reporting periods, the Commission completed final action on the management
decisions associated with three such reports, and intends to resolve its other outstanding
management decisions as expendiously as possible.




                                                3
B. Actions on Recommendations Made from Prior Periods

      (1) Evaluation of the Commission’s Fiscal Year 2005 Information Security Program and
      Practices Audit Report (OIG-AR-04-05). The Commission has fully implemented its
      final decisions as of late September 2013, but managerial review of this work was not
      completed by the end of that reporting period. As such, this will be completed in the
      current reporting period.

      (2) Inspection of Physical Security (OIG-SP-11-12). Lower staffing levels in the Office
      of Security Services due in part to reduced hiring in light of budget uncertainties, and
      uncertainty in the security field regarding best-practices following the recent Navy Yard
      incident, resulted in a delay in implementation of certain management decisions
      associated with the findings in this IG inspection. Additionally, the government shutdown
      in October resulted in a cascading delay in the physical access control system (PACS)
      upgrade on the part of our vendor. Nevertheless the outstanding audit follow-up
      requirements are being addressed. The draft Occupant Emergency Plan circulated in
      September is undergoing revision to incorporate comments received from OGC and
      others. PACS installation continues, with data load underway and upgrades to readers and
      computer systems complete and awaiting testing and acceptance. We plan to close-out
      the remaining management decisions by the end of January 2014.

      (3) Evaluation of Employee Outprocessing Program (OIG-ER-12-07). During the
      reporting period, the Commission continued to work on completing actions associated
      with the IG’s report. Management extended the deadlines on several of these
      management decisions in order to design and implement a comprehensive electronic
      system for out-processing, details, and transfers, and to design and implement training
      associated with the new system. Additionally, testing and rollout were delayed due in part
      to the government shutdown. System design and process development have now been
      completed, and the training and implementation phases are scheduled to be completed
      during the current reporting period.

      (4) Evaluation of Modifications to the Harmonized Tariff Schedule (OIG-ER-12-08).
      The Commission timely completed all actions to address the recommendations as to the
      existing procedures for modifying the HTS. The development of a new system that is
      web-based and provides an electronic workflow for modifying the HTS was delayed due
      to funding considerations. A contractor has been hired and the development team is
      working with program staff to produce the upgraded system that will respond to the IG
      recommendations and management response. The project to build the new system and
      meet other implementation goals, such as training, should be completed during the
      second quarter of FY 2014.


      (5) Evaluation on Controlling Confidential Business Information and Business
      Proprietary Information (OIG-ER-12-09). The Commission has made progress in
      developing a written policy that specifically addresses procedures for handling and
      destroying non-record copies of confidential business information and business
      proprietary information when an investigation or proceeding is closed. The Commission
                                              4
      has almost completed an evaluation of the legality and the risk of preserving nonrecord
      copies of documents after the close of an investigation.

      (6) Audit of Software Licensing (OIG-AR-12-10). The final stages of the software clean-
      up have been delayed in order to allow the completion of hardware lifecycle replacement
      and the implementation of compliance monitoring software. The removal of other
      noncompliant software from the remaining hardware is expected to be completed by the
      second quarter of 2014.


      The statistical tables, required under the IG Act, are included as Appendix A of this
      report.


C. Actions on External Reviews

      In the last reporting period, the Commission completed final actions on all outstanding
      management decisions stemming from the Office of Personnel Management (OPM)
      review of the Commission’s human capital management. To complete these final actions,
      the Commission issued several human capital management documents, including a
      strategic human capital plan, a training plan, a human capital accountability plan, a
      succession management plan, a diversity and inclusion strategic plan, and a review of the
      Commission awards program. During the last reporting period, OPM began a new human
      capital management evaluation and recently issued its report and findings. Corrective
      action has already begun to take place with respect to OPM’s new findings, noting that
      some of are have already been completed.




Irving A. Williamson
Chairman




                                               5
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


October 31, 2013                                                  OIG-LL-016

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period April 1, 2013 to September 30, 2013.

During this period, we issued two reports and made 10 recommendations to promote the
efficiency, effectiveness, and integrity of the Commission’s operations. The Commission
completed final action on one of these recommendations during this reporting period.
Additionally, the Commission completed final action on 33 recommendations that had
been made by the Inspector General in prior reporting periods.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General.............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges............................................................ 2
  1. Internal Control.......................................................................................................... 2
  2. Financial Management............................................................................................... 3
  3. Using Information Technology to Improve Staff Productivity.................................. 4

Inspector General Reports Issued During this Period .................................................. 5
  Audit of Perimeter Network Security, OIG-AR-13-09................................................... 5
  Audit of Security of Public-Facing Endpoints, OIG-AR-13-10 ..................................... 6

Significant Recommendations from Prior Periods ........................................................ 7

Hotline and Investigations................................................................................................ 8
 Investigations and Inquiries – Overview ........................................................................ 8
 OIG Hotline Contacts ..................................................................................................... 8
 Investigations and Inquiries ............................................................................................ 9

External Reviews Completed During this Period .......................................................... 9
  Office of Personnel Management – Human Resources Review ..................................... 9

Status of Actions Related to External Reviews Completed During Prior Periods ... 10

Reviews Completed for Other Offices of Inspector General ...................................... 10

Congressional Activities ................................................................................................. 10

Council on Inspectors General for Integrity and Efficiency....................................... 11

Federal Financial Management Improvement Act Reporting ................................... 11

Peer Review ..................................................................................................................... 11




                                                                 i
                              Report Period: April 1, 2013 through September 30, 2013
               U.S. International Trade Commission
                            Inspector General Semiannual Report

Tables
  Table 1:   Reporting Requirements Index ...................................................................... iii
  Table 2:   Management and Performance Challenges ..................................................... 2
  Table 3:   Reports by Subject Matter ............................................................................... 5
  Table 4:   Significant Recommendations from Prior Reports........................................ 12
  Table 5:   Reports with Questioned or Unsupported Costs............................................ 12
  Table 6:   Reports with Recommendations that Funds be Put to Better Use ................. 13
  Table 7:   Reports With Final Action Completed During This Reporting Period ......... 14
  Table 8:   Status of Reports Issued Without Final Action ............................................. 15

Appendices
Appendix A: Chairman’s Statistical Tables…………………………………………...A-1




                                                         ii
                         Report Period: April 1, 2013 through September 30, 2013
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                         Table 1: Reporting Requirements Index



                          Reporting Requirements Index

   IG Act                                  Description                       Page
Section 4(a)(2)       Review of Legislation                                  None
                      Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                              2-4
                      Deficiencies
                      Description of Recommendations for Corrective
Section 5(a)(2)       Action with Respect to Significant Problems, Abuses,   5-6
                      and Deficiencies
                      Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                              7, 12
                      Which Corrective Action Has Not Been Completed
                      A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                              None
                      Authorities
                      Summary of Instances Where Information or
Section 5(a)(5)                                                              None
                      Assistance was Unreasonably Refused
                      Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                               5
                      during this Reporting Period
Section 5(a)(7)       Summary of Significant Reports                         5-6
                      Statistical Table showing Questioned and
Section 5(a)(8)                                                               12
                      Unsupported Costs
                      Statistical Table showing Recommendations Where
Section 5(a)(9)                                                               13
                      Funds Could be Put to Better Use
                      Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)      the Reporting Period for Which no Management           None
                      Decision Has Been Made
                      Description of Any Significant Revised Management
Section 5(a)(11)                                                             None
                      Decisions
                      Information Concerning any Significant Management
Section 5(a)(12)
                      Decision with Which the Inspector General is in        None
                      Disagreement
Section 5(a)(13)      Information described under section 5(b) of FFMIA       11
                      Results of Peer Review Completed During This
Section 5(a)(14)                                                              11
                      Period or Date of Last Peer Review
                      List of Any Outstanding Recommendations From
Section 5(a)(15)                                                             None
                      Peer Review
                      List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                             None
                      Office of Inspector General During this Period




                                             iii
                   Report Period: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report


                         Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Inspector General’s initiative.

During this reporting period, the Inspector General developed and issued the five-year
strategic plan for fiscal years 2014–2018 that aligns with the strategic goals of the
Commission. The strategic planning process solicited input from a broad group of
stakeholders, including the Commissioners and Office Directors, to aid in identifying the
priorities, challenges, and risks facing the Commission. The strategic plan was then used
as the foundation to develop the FY 2014 Annual Audit Plan, which was issued on
September 26, 2013.




                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a report, semiannually, that
summarizes the activities of the office. This Semiannual Report covers the period from
April 1, 2013, through September 30, 2013. The 17 requirements, shown in Table 1, are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described below.

This Semiannual Report starts with a description of the Management and Performance
Challenges Report, OIG-MR-13-02, which identified three management challenges
facing the Commission and the actions management has taken to address these
challenges. It then summarizes the results of the two reports issued during this period,
describes significant recommendations from prior reports where final action is not
complete, and summarizes the hotline and investigative activities of the Inspector
General. The next section provides a summary of other reviews of the Commission
conducted by external parties; along with the status of recommendations from those
reports. The last sections supply information on other reportable activities such as




                                               1
                        Report: April 1, 2013 through September 30, 2013
              U.S. International Trade Commission
                        Inspector General Semiannual Report

congressional activity, participation in the Council on Inspectors General for Integrity
and Efficiency, other compliance activities, and our Peer Review status. Additional
tables at the end of the report detail statistics on Office of Inspector General reports and
recommendations.




           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report (OIG-MR-13-02) on October 15, 2012.
The report identified the challenges based on information learned from audit, evaluation,
and inspection work, a general knowledge of the Commission’s programs and activities,
and input from management regarding challenges facing the agency. The management
and performance challenges identified by the Office of Inspector General include the
three areas identified in Table 2. Following the table is a short discussion of the three
challenges and the efforts the agency has taken to address them.


                      Table 2: Management and Performance Challenges

                     Management and Performance Challenges
           1. Internal Control
           2. Financial Management
           3. Using Information Technology to Improve Staff Productivity


1. Internal Control

The Commission’s management is responsible for establishing and maintaining a system
of internal controls that can ensure effective and efficient operations, reliable financial
reporting, and compliance with laws and regulations. The Commission has had a long-
standing culture of undocumented and informal processes to complete daily tasks.
Documented and consistent processes and procedures are necessary to provide a
reasonable level of assurance that offices are operating in an efficient and effective
manner.

The Commission has taken steps to address this weakness by establishing a business
process mapping team to document the flow of existing business processes. The


                                                2
                         Report: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Commission established a mapping team and introduced training to help the Commission
document business processes via mapping techniques. The Process Mapping Team has
been working with Commission staff to capture existing business processes to answer
questions such as: (1) what conditions affect a given process? and (2) What design or
deployment aspects could be enhanced? The team has done process maps in eight
different lines of business or services for a total of 153 process maps.

These process maps will allow the Commission an opportunity to perform an analysis of
its processes to look for areas for improvement by identifying redundant and ineffective
processes, performance gaps, or areas of risk. It also provides the Commission with a
baseline illustrative process that can be used to begin establishing and documenting
formal procedures.

In addition, the Chief Financial Officer hired an Internal Control Program Manager to
establish a comprehensive program to address organizational internal control. Since
coming on board in December 2012, the Internal Control Program Manager has been
working one-on-one with office directors and designated representatives to promote
awareness of internal controls and develop an effective program in support of specific
organizational capabilities, requirements, and limitations.

The Commission is committed to improving and strengthening the internal control
environment. At the same time, the Commission understands a sustained effort over a
long period of time is needed to achieve a mature and effective internal control program.
The Commission will be challenged to manage and drive the cultural changes associated
with the development and implementation of an effective organizational internal control
program.

2. Financial Management

As a result of its disclaimer on the 2009 financial statements the Commission recognized
the importance and necessity of instituting a system of stronger financial controls and has
implemented corrective actions to address financial management deficiencies.

For example, the Commission established a new Office of the Chief Financial Officer,
and has recruited personnel with the appropriate knowledge and technical skills to fill key
financial management positions. The filling of these vacancies has led to improvements
in overall financial management. Important examples of this are the recent audits of the
Commission’s financial statements, which received a qualified opinion in 2010, and
unqualified opinions in 2011 and 2012.

The management challenge has been to transform financial management from an
accounting exercise to a process that ensures that managers will have access to timely,
reliable, and practical information that will enable them to make informed decisions. The


                                               3
                        Report: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Office of the Chief Financial Officer has taken steps to address the financial reporting
challenges by meeting with operational managers to discuss reporting requirements and
developing a reporting tool to provide access to financial reports.

Challenges remain to provide managers with reports to effectively monitor the
expenditure of funds, evaluate program performance, and make informed financial
decisions on the Commission’s programs and operations.

3. Using Information Technology to Improve Staff Productivity

Knowledge workers require a stable, productive information technology platform to
efficiently and effectively perform their work. Skilled staff are expected to perform their
mission whether they are on or off premises, and the platform supporting their work
should be resilient enough to allow work to continue, even in the absence of the primary
data center.

Significant information technology challenges remain that reduce the efficiency and
effectiveness of Commission staff. Examples of lost productivity include computers that
can take 15 minutes to become operational at boot-up, the multiple and forced reboots
during standard working hours, email outages spanning five days, and continued
undiagnosed performance problems affecting remote access. Systems should be designed
to minimize delays and work-stopping reboots, and to enable the recovery from outages
in minutes or hours instead of days.

To improve productivity, the Commission should prioritize the appropriate skills and
resources in the right areas to ensure that both basic and enhanced services work well and
contribute to a stable, consistent environment to effectively serve its staff regardless of
their location, or the situation at the primary data center.

We also reported separately (through the Chairman) to the Office of Management and
Budget, deficiencies in 7 of 11 information technology program areas evaluated as part of
the annual Inspector General Cyberscope Fiscal Year 2012 submission. The seven
program areas needing improvement are: Continuous Monitoring, Configuration
Management, Contingency Planning, Identity and Access Management, Incident
Response and Reporting, Risk Management, and Remote Access Management. The
Commission faces many challenges implementing information technology solutions to
improve staff productivity.




                                               4
                        Report: April 1, 2013 through September 30, 2013
                U.S. International Trade Commission
                           Inspector General Semiannual Report


         Inspector General Reports Issued During this Period
 The Inspector General issued two reports with a total of 10 recommendations during this
 reporting period. The Commission made management decisions on all of the
 recommendations, and the Inspector General agreed with all the management decisions.

 The Commission made management decisions on 6 recommendations issued during the
 last reporting period that were not due until after the last reporting period had closed.
 The Inspector General agreed with all of these management decisions.

 A listing of each report issued during this reporting period, by subject matter, is provided
 in Table 3.
                                 Table 3: Reports by Subject Matter

                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
                                Audit of Perimeter Network
IT Security      OIG-AR-13-09                                    06/24/2013                 7
                                Security
                                Audit of Security of Public-
IT Security       OIG-AR-13-10                                   06/24/2013                 3
                                Facing Endpoints
Total Recommendations Issued During This Reporting Period                                  10
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.



 Audit of Perimeter Network Security, OIG-AR-13-09

 RESULT: The audit determined that the Commission’s perimeter defense was effective.

 We conducted an audit to evaluate the effectiveness of the Commission’s network
 security perimeter. An effective perimeter defense is a significant component of a
 complete security program designed to prevent attackers from gaining unauthorized
 access to Commission resources and exploiting the network.

 We attempted to gain unauthorized access by conducting penetration testing of the
 externally available wired nodes on the Commission’s network. The device list used for
 this audit included but was not limited to all servers, workstations, routers, email
 gateways, and firewalls. The test included login attempts designed to allow information
 gathering, privilege escalation, and access to other areas of the Commission’s network
 infrastructure.




                                                    5
                            Report: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

To perform the testing, we used software to detect servers and their responding ports, and
then we scanned these servers for vulnerabilities and found:

   x   The Commission’s intrusion detection system effectively prevents port scanning;
   x   It was not possible to gain unauthorized access to identified services within the
       scope of the audit; and
   x   The majority of listening services identified seemed to be functions necessary for
       the Commission to conduct business.

Although the network perimeter defense effectively prevented our intrusion attempts, we
identified two areas for improvement. The first area for improvement was related to the
Commission’s scanning procedures and the second was to remediate webserver
vulnerabilities identified during the audit.

The report contained seven recommendations to address the two improvement areas. The
Chairman agreed with our findings and made management decisions to address the
recommendations.

Audit of Security of Public-Facing Endpoints, OIG-AR-13-10

RESULT: The audit determined that the Commission did not secure its public-facing
endpoints.

We conducted an audit of the responding ports on the Commission’s network to
determine if its public-facing endpoints were secure. The goal of perimeter defense is to
minimize the number and exploitability of responding ports, known as the “attack
surface.” To secure its public-facing endpoints, the Commission must block access to
network ports that should not respond to the Internet.

When accessed from the Internet, ITCnet should have had 14 responding IP addresses
and 26 responding ports to provide the services necessary to support USITC’s business
functions.

Our scan of responding network ports identified the following:

   x   41 responding ports from 18 different IP addresses;
   x   15 of 41 ports that should not have responded to our scans;
   x   4 of 18 IP addresses were detected that should not have been visible; and
   x   Two ports responded with a telnet login prompt to a network device.

We found two problem areas: 1) the Commission did not block access to ports that
should not respond to the Internet, and 2) it did not perform ongoing scanning to detect

                                               6
                        Report: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

vulnerabilities. As a result, they were unaware that ports were open that should not have
been accessible from the Internet. When we identified ports that should not have been
responding, we immediately notified the Office of the Chief Information Officer, who
then took action to block Internet access to those ports.

We issued three recommendations to address the problem areas identified in the report.
The Chairman agreed with our assessment, acknowledged the problem areas, and
developed management decisions to address the recommendations.




         Significant Recommendations from Prior Periods
The Commission has 29 recommendations described in prior semiannual reports where
corrective action has not yet been completed. The Inspector General identified three of
the 29 recommendations as significant. A brief summary of each significant
recommendation from prior periods is described below.

The first significant recommendation is from an evaluation that focused on modifications
to the Harmonized Tariff Schedule of the United States. The evaluation found that the
Commission maintained the Harmonized Tariff Schedule in many different electronic
files and various file formats. This resulted in inaccurate and inconsistent information to
be presented on the Commission’s public website. The Inspector General recommended
that the Commission develop and implement a single database to manage the Harmonized
Tariff Schedule. The Commission made management decisions to implement the
recommendation.

The second significant recommendation is from a report that reviewed whether the
Commission effectively controlled the use and retention of confidential business
information and business proprietary information at the end of an investigation or
proceeding. The evaluation found that confidential business information and business
proprietary information was retained indefinitely as a routine practice by employees as a
matter of convenience and preference. The Inspector General recommended that the
Commission create written policy that specifically addresses procedures for handling and
destroying non-record copies of confidential business information and business
proprietary information when an investigation or proceeding is closed. The Commission
made management decisions to implement the recommendation.

The third significant recommendation from prior periods is from an audit of software
licensing. The report found that the Commission did not have a complete record of all
software installed on its network. By not preventing or detecting software from being
installed, the Commission is at risk of violating license agreements as well as subjecting
its network and systems to additional risks. The Inspector General recommended that the

                                               7
                        Report: April 1, 2013 through September 30, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Office of the Chief Information Officer implement technical monitoring to detect the
installation of software, including details on when it was installed and by whom. The
Commission made management decisions to implement the recommendation.

A listing that identifies each recommendation along with the corresponding report
number is provided in Table 4.




                           Hotline and Investigations

Investigations and Inquiries – Overview
In accordance with professional standards and guidelines, the Inspector General conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of the
Commission.

The Inspector General reviews and analyzes all complaints received to determine the
appropriate course of action. In instances where it is determined that something less than
a full investigation is appropriate, the Inspector General may conduct a preliminary
inquiry into the allegation. If the information obtained during the inquiry indicates that a
full investigation is warranted, the Inspector General will commence an investigation of
the allegation.

OIG Hotline Contacts
The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve the
Commission’s areas of responsibility. We examine these complaints to determine
whether there is any indication of Commission wrongdoing or misconduct. If the
complaint does not relate to the USITC, we refer the complaint to the appropriate agency
for response. If the complaint does not have merit, we close the matter.

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.


                                               8
                        Report: April 1, 2013 through September 30, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Investigations and Inquiries
The Inspector General did not have any investigation or inquiry activity to report during
this reporting period.




           External Reviews Completed During this Period
There was one external review of the Commission’s programs completed during this
reporting period. The review was performed by the U.S. Office of Personnel
Management. The final report was issued on June 25, 2013. The result and a summary
of the external review are described below.

Office of Personnel Management – Human Resources Review

The Office of Personnel Management performed an assessment of the Commission’s human
resource program. The purpose of the review was to determine the Commission’s adherence
to merit system principles, compliance with laws and regulations, and to assess effectiveness
of the administration of human resource management and systems. The review was based on
three human capital management elements from the Office of Personnel Management’s
Human Capital Assessment and Accountability Framework. The three areas of review were:

   x   Leadership and Knowledge Management;
   x   Results-Oriented Performance Culture; and
   x   Talent Management, including USITC’s delegated examining program.

The Office of Personnel Management assessed 26 criteria from the three review areas. Two
of the review areas were determined to be not applicable to the Commission. The results
from the remaining 24 assessed areas are as follows:

   x   The Commission met the anticipated results in 12 of the 26 areas.
   x   The Commission partially met the anticipated results in 6 of the assessed areas.
   x   The Commission did not meet the anticipated results in 6 of the assessed areas.

The final report identified 25 recommendations for the Commission. The Commission made
management decisions to implement all of the recommendations.




                                               9
                        Report: April 1, 2013 through September 30, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report


    Status of Actions Related to External Reviews Completed
                      During Prior Periods
The Commission did not have any open management decisions related to external
reviews completed during prior periods.




   Reviews Completed for Other Offices of Inspector General

Section 6(a)(3) of the Inspector General Act of 1978, as amended, gives the Inspector
General the authority to obtain assistance for carrying out the duties and responsibilities
provided by the Act from any other Federal agency.

The Inspector General provides assistance to other Offices of Inspector General by
performing independent information technology reviews. The reviews can cover a wide
array of information technology subject areas such as: penetration testing, vulnerability
assessments, configuration review, and evaluation of monitoring and incident detection
and remediation.

To facilitate assistance, the Inspector General will enter into a Memorandum of
Understanding with the other Federal agency, in accordance with 31 U.S.C. 1535, the
Economy Act of 1932, as amended. The Memorandum of Understanding describes the
subject area to be independently reviewed, scope, methodology, cost, schedule, and any
associated deliverables in writing before work is to be commenced. We completed one
review during this reporting period.




                            Congressional Activities
The Inspector General responded to two congressional inquiries this reporting period.
Both inquiries were seeking updates from the Inspector General community on previous
data requests. The first inquiry was from the Chairman and Ranking Member of the
House Committee on Finance, and the Ranking Member of the Senate Committee on
Oversight and Government Reform. They were seeking an update from the Inspector
General community on open and unimplemented recommendations.

The second request was from the Ranking Member of the House Committee on Finance
and the Ranking Member of the Subcommittee on Investigations Homeland Security and
Governmental Affairs Committee. They were seeking updated information to determine

                                              10
                        Report: April 1, 2013 through September 30, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report

if the Office of Inspector General has had any instances of closed investigations,
evaluations, and audits that were not disclosed to the public or any instances of threats
from federal officials trying to impede communications with Congress.




   Council on Inspectors General for Integrity and Efficiency
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE). The Office of
the Inspector General staff have volunteered to serve as members on various working
groups and committees that address cross-cutting issues such as, knowledge management,
cloud computing, investigations, cyber security, new media, small agencies concerns, and
legislative issues.



  Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.



                                     Peer Review
The Office of Inspector General’s last peer review report of our audit operations was
issued on January 16, 2013. The report determined that the system of quality control for
conducting audits had been suitably designed and implemented; and received a peer
review rating of pass. All recommendations identified in the report have been
implemented.

The peer review schedule is set by the CIGIE; the next peer review of my office will be
conducted in two years. We are scheduled to perform a peer review of another Inspector
General’s audit operation during the next reporting period.



                                              11
                        Report: April 1, 2013 through September 30, 2013
               U.S. International Trade Commission
                          Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed


                       Prior Significant Recommendations
                 Where Corrective Action Has Not Been Completed
    Report Number                                     Recommendation
                        Develop and implement a single database to manage the Harmonized
    OIG-ER-12-08
                        Tariff Schedule.
                        Create a Commission-wide written policy that specifically addresses
                        procedures for handling and destroying nonrecord copies of confidential
     OIG-ER12-09
                        business information and business proprietary information when an
                        investigation or proceeding is closed.
                        Implement technical monitoring to detect the installation of software,
    OIG-AR-12-10
                        including details on when it was installed and by whom.


                     Table 5: Reports with Questions and Unsupported Costs

                   Reports with Questioned and Unsupported Costs
                                   Section 5(a)8
                                              Number of         Questioned         Unsupported
             Description
                                               Reports            Costs               Costs
Reports for which no management
decision has been made by the
                                                      11               $0                 $0
commencement of the reporting
period.
Reports issued during the reporting
                                                      2                $0                 $0
period.
                             Subtotals                3
Reports for which a management
decision was made during the                          3                $0                 $0
reporting period.
    x Dollar value of disallowed
                                                                       $0                 $0
        costs.
    x Dollar value of allowed costs.                                   $0                 $0
Reports for which no management
decision has been made by the end of                  0                $0                 $0
the reporting period.
                             Subtotals                3                $0                 $0


1
  Management Decisions were received in response to the purchase card report, OIG-ER-13-08, which was
issued at the end of the last reporting period and management decisions were not due until after the
reporting period had closed.

                                                 12
                           Report: April 1, 2013 through September 30, 2013
               U.S. International Trade Commission
                          Inspector General Semiannual Report

Table 6: Reports w/ Recommendations that Funds be Put to Better Use



         Reports with Recommendations that Funds be Put to Better Use
                               Section 5(a)9
                                                               Number of         Funds Put to
                        Description
                                                                Reports           Better Use
    Reports for which no management decision has been
                                                                      12                 $0
    made by the commencement of the reporting period.
    Reports issued during the reporting period.                        2                 $0
                                                Subtotals              3                 $0
    Reports for which a management decision was made
                                                                       3
    during the reporting period.
        x Dollar value of recommendations agreed to by
                                                                                         $0
            management.
        x Dollar value of recommendations not agreed
                                                                                         $0
            to by management.
    Reports for which no management decision has been
                                                                       0                 $0
    made by the end of the reporting period.
                                                Subtotals              3                 $0




2
  Management Decisions were received in response to the purchase card report, OIG-ER-13-08, which was
issued at the end of the last reporting period and management decisions were not due until after the
reporting period had closed.

                                                 13
                           Report: April 1, 2013 through September 30, 2013
                U.S. International Trade Commission
                            Inspector General Semiannual Report

            Table 7: Reports With Final Action Completed During this Reporting Period


                            Reports With Final Action Completed
                               During this Reporting Period
                             Reports Issued This Reporting Period
                                                                 Final Action     Final Action
                                       # of        Mgt.
             Report Title                                        Complete in     Complete This
                                       Recs.     Decisions
                                                                 Prior Periods       Period
    None.
                             Totals      0             0                0               0
                                      Prior Reporting Periods
                                                                 Final Action     Final Action
                                       # of        Mgt.
             Report Title                                        Complete in     Complete This
                                       Recs.     Decisions
                                                                 Prior Periods       Period
    Compliance with Laws and
1                                        2             2                1               1
    Regulations, OIG-AR-11-04
    Report on Internal Control for
2                                        12            12              10               2
    FY 2011, OIG-AR-12-03
    Audit of Title VII Preliminary
3                                        2             2                1               1
    Process, OIG-AR-12-06
    Report on Internal Control for
4                                        3             3                1               2
    FY 2012, OIG-AR-13-04
    Management Letter for FY
5   2012 Financial Statements,           2             2                0               2
    OIG-ML-13-06
                             Totals      21            21              13               8




                                                  14
                            Report: April 1, 2013 through September 30, 2013
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 8: Status of Reports Issued Without Final Action

                     Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                                Decisions
                                                                                Final      Action
                                        # of       Mgt.            IG
             Report Title                                                       Action      Not
                                        Recs.    Decisions      Disagrees
                                                                               Complete   Complete
                                                                  With
    Audit of Perimeter Network
1                                         7            7             0            0          7
    Security, OIG-AR-13-09
    Audit of Security of Public
2   Facing Endpoints,                     3            3             0            1          2
    OIG-AR-13-10
                             Totals       10           10            0            1          9
                                       Prior Reporting Periods
                                                                  Final         Final
                                                                 Action         Action     Action
                                        # of       Mgt.
             Report Title                                       Complete       Complete     Not
                                        Recs.    Decisions
                                                                  Prior          This     Complete
                                                                 Periods        Period
    FISMA FY 2004 Performance
1                                         14           14           12            1          1
    Audit, OIG-AR-04-05
    Inspection of Physical Security,
2                                         22           22            8            6          8
    OIG-SP-11-12
    Evaluation of Employee Out-
3   Processing Program,                   11           11            5            3          3
    OIG-ER-12-07
    Evaluation of Modifications to
4                                         8            8             5            2          1
    HTS, OIG-ER-12-08
    Evaluation of Controlling
5                                         6            6             0            0          6
    CBI/BPI, OIG-ER-12-09
    Audit of Software Licensing,
6                                         6            6             0            2          4
    OIG-AR-12-10
    Audit of Citrix Remote Access,
7                                         11           11            0            9          2
    OIG-AR-13-01
    Evaluation of the Purchase
8                                         6            6             0            2          4
    Card Program, OIG-ER-13-08
                             Totals       84           84           30            25         29




                                                  15
                            Report: April 1, 2013 through September 30, 2013
             U.S. International Trade Commission
                                        Appendix A


Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs

  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              2              $0
 Reports for which final action had not been taken by
                                                               13              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                1              $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                5              $0
 reporting period.
     x Dollar value of disallowed costs, recovered                             $0
         by management.
     x Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                               10              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                13              $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    1           $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    5           $0
 reporting period including:
     x Dollar value of recommendations that were                                $0
         actually completed.
     x Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                10              $0
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                 Appendix A


          Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                               Funds Put        Reason Final
                                 Disallowed
 Audit Report     Date Issued                   to Better      Action has Not
                                   Costs
                                                   Use          Been Taken
                                                              Provided in Part II B
OIG-AR-04-05      09/27/2005         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-SP-11-12      09/09/2011         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-ER-12-07      01/25/2012         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-ER-12-08      06/13/2012         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-ER-12-09      06/20/2012         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-AR-12-10      8/16/2012          $0            $0          of the Chairman’s
                                                                    Message




                                      A-2

                  Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
